?•

At a special term of the County
Court of the State of New York,
held in and for the County of
Delaware at Delhi, New York on
March 20, 2020.
County Court of the State of New York
County of Broome

The People of the State of New York
-against-

DECISION AND ORDER
Indictment No. 2012-0093

Sara G. Kielly,
Defendant

This matter comes before the court on an Order to Show Cause issued by the
court dated February 11, 2020 based upon the defendant’s affidavit sworn to on
December 26,2019, the exhibits annexed thereto, the brief, numerous “End Notes”, and
six volumes of appendices (so labeled) by which she seeks an order vacating her plea
of guilty pursuant to Criminal Procedure Law (CPL) section 440.10, amongst other
relief. By “letter motion” dated March 18, 2020 and containing no return date the
defendant further seeks an order “staying the judgment of conviction and sentence.”
The People have filed no papers with respect to any of the defendant’s motions,
so the defendant’s written request for a twenty day reply window relative to the first
set of motions is, accordingly, denied as moot. The court will determine the various
motions based on the law and the defendant’s papers only.
Pursuant to a plea bargain arrangement the defendant entered a plea of guilty
in Broome County Court on September 5, 2012 one count of Murder in the 1st degree,
a class A-l felony in violation of section 125.27 of the Penal Law of the State of New
York, in full satisfaction of the indictment, with the understanding that if he did so he
would be sentenced to an indeterminate term of incarceration in state prison having
a minimum term of 25 years, and a maximum term of life. The defendant was so
sentenced on December 14, 2012, and is currently serving her sentence in the New
York State prison system.
The defendant asserts that her having made a previous motion pursuant to CPL
section 440.10 should not be subject to the discretionary denial afforded the court
under subdivision 3 (c), because the justification for granting it had not “actionably
Page 1 of 3

1
4

V

T

accrued at that time.” While it may be true that the incidents alleged to give rise to
her present motion had in fact not occurred then, the flaw in her papers is that the
motion is not based on any of the grounds upon which a motion to vacate a conviction
may be made. See CPL section 440.10. Rather, her argument is that the People of the
State of New York have “breached the binding plea contract herein in a manner
shocking to the conscience of a maturing society." (Paragraph 8 of Kielly Affidavit in
Support of Motion to Vacate). This she says is due to certain maltreatment she has
suffered while incarcerated. Specifically, the defendant alleges emotional and physical
injuries resulting from the People of the State of New York having “conspired to
deliberately create unconstitutional conditions of confinement; to include deliberate
indifference to (her) serious medical, and mental health needs.” (Paragraph 9 of Kielly
Affidavit in Support of Motion to Vacate). She further asserts that her attempts to
address these issues both administratively and through the state and federal court
systems have resulted in retaliation from prison staff comprised of, but not limited to,
name calling, sexual harassment, physical threats and assaults, denial of meals,
electricity and bedding, destruction of property, and lengthy periods of unwarranted
solitary confinement.
Defendant’s allegations, even if only some are true, are shocking, repulsive and
rightly condemnable, and although there are no doubt avenues available by which they
may be addressed, this is not one of them. None of the grounds set forth in CPL section
440.10 by which a court may vacate a judgment of conviction apply here, so the court
must deny her motion.
As to Defendant’s most recent motion for an order “staying the September 5th,
2012 judgementof conviction and sentence ofDecember 2012" pursuant to CPL section
440.10 “in the interest of substantial justice,” the Court notes that it is based on the
same factual allegations and statutory law contained in the first set of motion papers.
A careful review of CPL sections 440.10 and 440.20 reveals no express or implied
authority therein for a court to “stay” a judgment of conviction or sentence.
Although the defendant accurately cited Woodson v. Mendon Leasing Corp., et
al, 100 NY2d 62 (2003), in support of the proposition that a Court may vacate a
judgment in the interest of substantial justice, the facts there are remarkably different
than those alleged here. Woodson related to a default judgment entered in a civil case,
(which the Court of Appeals determined had been erroneously vacated by the trial
court), and the case at bar is a criminal matter in which the defendant was convicted
by her own admission of Murder in the 1st degree, one of the most serious crimes for
which a sentence of incarceration may be imposed. As mentioned above, the treatment
to which the defendant claims to have been subjected while incarcerated is certainly
serious, but vacating her conviction and ordering a stay of the sentence so as to
effectively set her free would decidedly not be in the interest of substantial justice.
Rather, it would make a mockery of the criminal justice system, severely undermining
it’s credibility by sending a message to the public that the comfort and safety of a
Page 2 of 3

(A 3-")

■

f"

mi303Bs$B& acetnmtatle for bruta%iand .sensigfosgly; takadii $aj iferpebt/ pfe. The
db&ndaniV transparent eSbrtfcav^^rd^d^
borderline outrageous and unsupported by any-precedent cited by the defendant or
otherwise known to the Court.
It;is;therefb!rei
CpRDEJtEl, $l#thidefehiiq^^
jdeaJdlljlEfED;
and it is further..............~.....
. ' '
ORDERED, that tho defondant’sreqtiesi that the court considerthe 'evidentiary
feessopaniJI-MgfcB--

.....Ssipl *1 m

sfiiiii #,«*§##

mkm^4 and. thorough
defondant’^^MMssici^ ;bnt thdir obmpne lack
of any merit, her application for assignment of counsel is DENIED; and it is farther
.- . - J.-c,-.;. '.4. '•:•

.

*

ill® |&e? entirety of the "six volume evidentiary- appendix” be
returned to thedefendant-due to their having np relationship to the’determinations
•niadbbythe courfeon any;a^ect;ofthis;mption. ;Sinceail medicaliand rnehtSihesd’th
>ofUp :!ie^dantv;isuindfed :in<'snppp;rt. fpf^femotibn ares sonkhied: therein, the.

«|n|^#fo; toOTf aMMs Mte
as to

of^ aceon so

ORDEREDi tiatj thp defendant’s requests for "emergency action” and to_be
transported to the Broome County Correctional Facility are DENIED; and it is -further
pRDFREidv fhat ;the defendant’s .suppieMental ap|iiicatiofi'; for an nnmediale :
&W. her “judgment of eppneiqn iand
^Snjfclidjgresi ofspfcstantK#
5l*ce;”i>ursuaht to GPL

<

I

mm®

m.jmm

^atedatI3elhasW

■

;. ■;■--■■ *•-■ *J*..••• •.• •--•.• m

,•• v.v.;

•l

iaie:#eil'
(a-^
•

*•

VmVsF* »•' »*■i-*-.*J*1?1'.5;iS’l*"#!***'I -'V'ixi,;,

•.

;

*

At a special term of the County
Court of the State of New York,
held in and for the County of
Delaware at Delhi, New York on
May 15, 2020.
Cbunty Court of the State of New York
County of Broome

:

The People of the State of New York
-against^

DECISION AND ORDER
Indictment No. 2012-0093

•. */.. •

Sara G. Kielly, f/k/a Alan Outman,
Defendant.

Subsequent to the March 31, 2020. Decision and Order issued by the court
denying the defendant’s motion brought by Order to,Show Cause dated February 11
.2020 but evidently.prior to the defendant’s receipt of a copy of the same, the '
defendant, by affidavit sworn to on April;14, 2020, askedthe court to order her to be '
removed from the general prison population and placed in quarantine, designate the,
already decided motion “essential”, produce her in person or. virtually for an
evidentiary hearing on the already decided motion, issue “a stay upon Petitioner’s
mandate of detention with stipulations providing release of her under adequate release
. supervision,” arid appoint her counsel.
.
court has a*so received a written submission dated May 7, 2020, in which
the defendant asks the court to “reconsider?’ the ruling contained in the Decision and
Order dated March 31, 2020 summarily denying her motion to vacate her conviction
pursuant to CPL section 440.10. Although it is signed but unsworn or affirmed the
court will deem it a formal motion.
~
- .
’.
.......
,,
dated May 14, .2020 of Senior Assistant Broome County District
Attorney Rita M. Basile the People oppose the defendant’s request for reconsideration
and her release from prison..This, too, is unsworn or affirmed, so the court will deem
it a memorandum of law.
The various matters have' been assigned to the undersigned for determination
as acting Broome County Court Judge.
y '
As to the first prong set forth in the April 7,2020 affidavit, the court is unaware
ol, and the defendant fails to point to, any authority by which the court may order the
Page 1 of 4
(■

OH)

New York State Dep artment of Corrections and Community Supervision to quarantine
an inmate in the context of a CPL section 440.10. motion. This portion of the
defendant’s motion is therefore denied.
The defendant’s application for release under supervision might properly be
before the court if the court were to grant the defendant’s motion to vacate her.
conviction. However, the conviction will not.be vacated, as discussed below, so release
on this basis is denied as moot. To the extent that the defendant seeks to be released
because of the risk of infection by the Covid-19 virus, the People correctly cite to CPL
section- 430.10, which specifically prohibits the court from changing, suspending, .or ’
interrupting a sentence once it has been lawfully imposed, unless otherwise authorized
by law. No such authorization appears to exist here, so the defendant’s request for
release on this basis must be denied.
\

•

'

'

•

'

. \

Tha remaining branches of the April 7, 2020 affidavit: to designate the motion
“essential”, produce her at a hearing, and appoint her counsel, are tangential to the
motion disposed of in the court’s March 31, 2020 Decision and Order, and are thus also
denied as moot.
Relative to. the defendant s May 7, 2020 submission, since the court is unaware
of any authority for the court to “reconsider” a motion the court will deem this
application, despite it s.not being identified specifically as such, a motion to reargue
pursuant to CPLR 2221 in light .of the defendant’s claim that there were “matters of
fact or law allegedly overlooked or misapprehended by the court.” In particular,
Defendant contends the court should have considered whether pursuant to CPL
sections 440.10 (1) (b) and 440.10 (1) (h), the defendant’s judgment of conviction “was
procured by duress, misrepresentation, or fraud on the part of the prosecutor, or a
person acting, on behalf of the court or prosecutor, (i.e.:. [her] defense attorney)”, and/or
that “the judgment was obtained , in violation of a right of the defendant , under the
constitution of this state or the United States,” respectively. (Paragraph 5a and b of
May 7, 2020 Kielly submission.)
The defendant’s motion to reargue is granted, and the court will now address
whether the previous ruling relating to the defendant’s CPL. section 440.10 motion
should be reversed.
Defendant argues that the duress, misrepresentation, or fraud, and the violation
of her constitutional rights committed by the prosecutor, her defense attorney and/or
the trial court results from one or more of them having “maliciously and deliberately •
misrepresented and fraudulently promised (her) , that there would be adequate
protection by the Respondent from unconstitutional conditions of confinement,
treatment tantamount to torture, cruel and unusual punishment, and provisions of
equal protection of the law, and adequate treatment of (her) serious medical and
mental health needs.” (Paragraph 6 of May 7, 2020 Kielly submission.) In this regard,
the defendant claims “the prosecutor and appointed counsel for defendant made
. Page 2 of 4

(A ■‘s')
l

\.v

$

i

express and implied promises to procure a. plea, of guilt (sic)', of which they knew were
fraudulent, and could never be achieved. The prosecutor .and (her) defense attorney
appointed by the court knew that the ‘25-life’ sentence, they coerced (her) into would
lead to (her) unavoidable death rather than an ability to have an opportunity at parole
after 25 years.” (Paragraph 7 of May 7, 2020 Kielly submission.)
The defendant has filed, with the court over the past several, months many
. hundred pages comprised of affidavits, arguments, briefs and records of all sorts,’ and
conspicuously absent from each of them is any information to substantiate her claim
that the prosecutor or defense attorney assured her that she would not be mistreated
in prison, much less that it was a condition of permitting her to enter a guilty plea.
Highly relevant and probative are copies of transcripts from her pre-plea interview
with the Broome County District Attorney on September. 5, 2012, her plea proceeding '
on the same date, and her sentencing conducted on December 24, 2012 contained in
a folder labeled “Vol. 1" of the set of papers defendant furnished with her original
motion. Nowhere in the transcripts of these proceedings is there any mention of how
the defendant might be treated in state prison. The only promise made by the People
in .exchange for the defendant s guilty plea to Count 4 of the indictment was that they
would recommend a sentence of 25 years to life. (Plea minutes, page 3, lines 18 - 24)
At sentencing that recommendation was made and imposed. (Sentencing minutes, page
34, line 1) Notably, at the time of the guilty plea, when.the court specifically asked if
anyone had promised (her) anything other than what was placed on the record
regarding sentence in order to get (her)'to plead guilty”, she said “No, your Honor.”
(Plea minutes, page 6, lines 22 - 25) Likewise, when the trial court asked “Has anyone
threatened you or forced you in any way in order to get you to plead guilty?”, the
defendant unequivocally stated “No, your Honor.” (Plea minutes, page 6, lines 22 - 25)
In view of the foregoing, it can not be credibly argued that the defendant’s plea
of guilty was the result of unkept promises or. coercion of any sort. Consequently no •
hearing is necessary because it is patently clear from the defendant’s own.submissions
that her motion to vacate her conviction pursuant to CPL section 440.10 (1) (b) and/or
440.10 (1) .(h), is not justified since she'has failed to establish a ground under the
. statute upon which relief may be granted. It is therefore .
.
ORDERED, that the defendant’s motion to reargue is GRANTED- and it is
further
’
ORDERED, that the defendant’s motion for a reversal any of the rulings adve
rse
to the defendant contained in the court’s'Decision and Order dated March 31, 2020,
together with all other branches of her present motions, are DENIED in their entirety!

Page 3 of 4

.

\

*.

\

»
•■t

••

ENTER
Dated at Delhi, NY
May 22, 2020

t:

:

Richard D. Northrup, Jr., A.J..G.C

;

!
:

I

*.

;

:

:

v

t,

•/

7

J
:

Page 4 of 4

f H'

fk

\

e
■j

7
i

piac'iew «£_ '• (e (
State ofNew York
Supreme Court, Appellate Division
ThirdJudicialDepartment

Decided and Entered: June 17, 2020

112340

THE PEOPLE OF THE STATE OF
NEW YORK
v

DECISION AND ORDER
ON MOTION

SARA G. KIELLY, Formerly Known as
ALAN OUTMAN,
Defendant.

Application, pursuant to CPL 460.15, for permission to appeal to this Court from
order of County Court, Broome County, dated March 31, 2020.
Upon the papers filed in support of the application and the papers filed in
opposition thereto, it is
ORDERED that the application is denied.

ENTER:

Hon. Robert C. Mulvey
Associate Justice

UV5 ^

At a Special Term of the County Court
of the State of New York, held in and
for the County of BROOME, at the
Courthouse located in Delhi, NY on
June 17, 2020.
State of New York .
County Court: County of Broome
The People of the State of New York,
-against-

DECISION and order
Indictment No.: 2012-093

Sara G. Kielly, f/k/a Alan Outman,
Defendant.
This matter comes before the court on the defendant’s motion for leave to
reargue, filed on June 4, 2020.
The court considered the following submissions in determining this motion:
1. The defendant’s affirmation dated June 1, 2020;
2. The letter memo of Senior Assistant Broome County District Attorney Rita
Basile, Esq., dated June 5, 2020;
3. The defendant’s reply affirmation dated June 10, 2020.1
On May 7, 2020, the defendant submitted a motion for the court to “reconsider”
its March 31, 2020 decision and order denying the defendant’s motion pursuant to
CPL § 440.10. After deeming the motion to be one for leave to reargue, the court
granted the motion insofar it sought reargument but denied the motion to reverse
any of the rulings adverse to the defendant iri the court’s March 31, 2020 decision and
order. The defendant now seeks leave to reargue the prior motion.
“A motion to reargue is premised upon the theory that the court has overlooked
significant facts or misapplied the law in its original decision” {Matter of Town of
Poestenkill v New York State Dept, of Envtl Conservation, 229 AD2d 650, 651 [3d
Dept 1996]). Motions for leave to reargue are “addressed to the discretion of the court”
{Foley v. Roche, 68 AD2d 558 [2d Dept 1979]), and are not intended “to afford an
unsuccessful party successive opportunities to reargue issues previously decided or

1 Attorney Basile submitted another letter memo, dated June 17, 2020, in response to the
defendant’s second affirmation, apparently understanding it to be yet another motion. Since the court
is deeming both of the defendant’s affirmations to.be in support of the same motion, Attorney Basile’s
second letter memo is not considered here as it constitutes a sur-reply.

to present arguments different from those originally asserted {Mayer v. National Arts
Club, 192 AD2d 863, 865 [3d Dept 1993]).
Here, the defendant has failed to demonstrate that the court overlooked any
fact or misapplied the law. The defendant’s motion to reargue must therefore be
denied.
It is so ORDERED.
DATED:
EN'

A1JJ

Hon. Richard D. H|fo:£thrup, JrT
County Court Judged

Page 2 of 2

CA.i£0

Additional material
from this filing is
available in the
Clerk's Office.

